Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




 Y2K READINESS OF MEDICARE
 FEE-FOR-SERVICE PROVIDERS
       AS OF JULY 1999




                   JUNE GIBBS BROWN
                    Inspector General

                      OCTOBER 1999
                      OEI-03-98-00253
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

David Tawes, Lead Analyst
                           Elise Stein , Program Specialist

Robert Katz
                                         Scott Horning, Technical Support Staff

Cynthia Hansford
                                    Linda Moscoe, Technical Support Staff

                                                     Brian Ritchie, Technical Support Staff

                                                     Barbara Tedesco, Technical Support Staff




 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                                 EXECUTIVE            SUMMARY

PURPOSE

         To provide information about the Year 2000 (Y2K) readiness of Medicare fee-for-service
         providers.


BACKGROUND

         The Y2K problem impacts Medicare fee-for-service providers in several ways. Billing
         systems, medical records systems, and biomedical devices must be evaluated for Y2K
         problems that could cause them to malfunction. Additionally, Medicare providers must
         contact their vendors and utility suppliers to ensure that external factors will not cause
         problems that may put beneficiaries at risk. Providers should also complete contingency
         plans in preparation for possible Y2K-related problems. The Health Care Financing
         Administration (HCFA) has undertaken extensive outreach efforts to assist Medicare
         providers in preparing for Y2K.

         For this inspection, we sent anonymous surveys to 5000 randomly-selected Medicare
         providers representing five provider groups: acute-care hospitals, nursing facilities, home
         health agencies, durable medical equipment (DME) suppliers, and physicians. Response
         rates ranged from a high of 56 percent for hospitals to a low of 20 percent for physicians.

         The Office of Inspector General released a report on the Y2K readiness of Medicare fee-
         for-service providers in March of 1999, and a report on the Y2K readiness of Medicare
         managed-care organizations in May of 1999. An update to the latter report will be
         released in the near future.

         Recognizing the importance of provider readiness, the United States House of
         Representatives Committee on Commerce and the Senate Special Committee on the Year
         2000 Technology Problem requested that we conduct this inspection.



FINDINGS

Approximately two-thirds of Medicare fee-for-service providers reported that their
billing and medical records systems were Y2K ready

         Sixty-one to 75 percent of providers who use computerized billing and medical records
         systems reported that these systems were Y2K ready. Almost all providers expected their
         billing and medical records systems to be fully ready by the end of 1999. However, at
Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
Providers as of July 1999                         1
         least one-third of providers reported that they had not yet tested the readiness of these
         systems. Furthermore, many providers had not tested data exchanges with vendors and
         contractors.

Even fewer fee-for-service providers reported that their biomedical equipment
was Y2K ready

         Less than half of providers reported that all of their biomedical equipment was Y2K ready.
         However, most providers expected their biomedical equipment to be completely ready by
         the end of the year. Hospitals were the most likely of the provider groups to report that
         they had tested their equipment. The majority of providers indicated that they are relying
         on the manufacturers of their biomedical equipment to provide Y2K information.

Many Medicare fee-for-service providers had not completed contingency plans

         Less than 60 percent of survey respondents said they had completed contingency plans.
         Some providers reported that they did not intend to make contingency plans before the
         end of the year. In addition, uncertainty about external suppliers and utility providers was
         also a cause of concern among some Medicare providers.

Not all providers are taking advantage of Federal outreach efforts

         Some providers were not aware that Y2K information is available on numerous Federal
         websites. However, almost all of the respondents who had visited the websites found
         them to be helpful. While approximately 70 percent of providers reported that their
         Medicare contractors had sent them information or offered assistance with Y2K, about 30
         percent were unaware of contractor efforts.


CONCLUSION

Many Medicare fee-for-service providers were not Y2K ready as of July 1999, and
we have concerns that some providers may not be ready by January 1, 2000.

         In the six months between our two surveys, health care providers have generally reported
         improvements in the status of their billing systems, medical records systems, and
         biomedical equipment. Providers were also more likely to report having completed
         contingency plans than they were six months ago. However, certain provider groups are
         further along the path to Y2K readiness than others. These differences are reflected in:
         their reported readiness as of July 1999; the concrete steps they have taken in preparation
         for Y2K; and their higher response rates.

         Furthermore, some providers still report not taking the necessary steps to ensure that they
         are Y2K ready. Additionally, since a large number of providers did not respond to our
Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
Providers as of July 1999                         2
         survey, we have no information to measure their current Y2K status, or their prospects for
         future readiness.

         While Y2K readiness is the responsibility of individual providers, HCFA has undertaken
         numerous efforts to assist them. As HCFA, as well as the provider associations, continue
         their outreach and education initiatives, we suggest they focus on the following:
         emphasizing the need to test data exchanges as well as internal computer systems,
         stressing the importance of contingency planning, and publicizing websites where Y2K
         information is available. With only a few months left until the year 2000 arrives, it is
         increasingly important that HCFA, provider associations, and the providers themselves
         work together to ensure that beneficiaries will continue to receive uninterrupted quality
         care.

Agency Comments

         The HCFA agreed with our conclusions, stating that our survey confirms what their own
         outreach efforts have found: providers have made progress in Y2K readiness, but there is
         still much work to be done. Additionally, HCFA provided a detailed account of their past
         outreach activities and future plans. They concluded by stating that Y2K continues to be
         the agency’s top priority. The full text of their comments is found in Appendix C.

         We commend HCFA’s attention and concern regarding Medicare fee-for-service
         providers’ readiness for Y2K, and support their plans for continued outreach activities.




Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                         3
                                     TABLE                 OF           CONTENTS

                                                                                                                             PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS 


          Billing and Medical Records Systems . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


          Biomedical Equipment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          Contingency Planning . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Outreach Efforts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14


APPENDICES


          A: Provider Survey Responses . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


          B: Comparison with Previous Survey Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29


          C: Health Care Financing Administration Comments . . . . . . . . . . . . . . . . . . . . . . . . . . 34





Y2K Readiness of Medicare Fee-for-Service                                                                           OEI-03-98-00253
Providers as of July 1999                                         4
                                            INTRODUCTION

PURPOSE

         To provide information about the Year 2000 (Y2K) readiness of Medicare fee-for-service
         providers.


BACKGROUND

         Early programmers had to deal with two major constraints in the first few years of
         computer technology: limited computer memory and high data storage costs. Today’s
         Y2K problems stem directly from early programmers’ use of an “implied century.” This
         allowed them to conserve space by coding the year as a two-digit code rather than a four-
         digit code in the date field. For instance, the year 1970 was entered as 70, and the year
         1980 as 80.

         Computers that do not rely on implied centuries, and are therefore capable of processing
         four-digit years after 1999, are said to be “Y2K ready” or “Y2K compliant.” Computers
         that are not Y2K compliant will malfunction when the implied century (the first two digits
         of a four-digit year) is not 19. The year 2000 in a non-Y2K compliant computer is read as
         ‘00’, and thus interpreted as 1900. When this happens, computers will have problems
         processing information.

The Impact of Y2K on Medicare

         According to the Health Care Financing Administration (HCFA), the Medicare program
         has 100 mission-critical computer systems containing almost 50 million lines of
         programming code. The HCFA has made it a top priority to ensure that these systems,
         and the systems of its contractors, are ready for the year 2000.

         HCFA must also be concerned with the compliance of individual systems used by
         Medicare fee-for-service providers. The Y2K problem impacts Medicare providers in
         several ways. Medical records systems must be readied in order to safeguard patient care.
         Biomedical devices containing embedded microchips must be evaluated for Y2K problems
         that could cause them to malfunction. Billing and financial systems must be updated so
         that electronic Medicare claims can be properly submitted and reimbursed. Furthermore,
         Medicare providers must contact their vendors and utility suppliers to ensure that external
         factors will not cause problems that may put beneficiaries at risk. Finally, providers
         should also complete contingency plans in preparation for possible Y2K-related problems.


Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                         5
         In addition to preparing its own internal and external contractor systems for Y2K, HCFA
         has conducted extensive outreach to Medicare fee-for-service providers. Its efforts are
         intended to ensure that providers are capable of submitting Y2K compliant claims to
         HCFA, and to help make providers aware they must have their individual systems
         renovated and tested. As part of this outreach initiative, HCFA mailed more than one
         million letters regarding the Y2K issue to Medicare providers in January of 1999. The
         letter stated that HCFA will be ready to process and pay all acceptable claims on January
         1, 2000, and stressed that providers must take steps to ensure their own Y2K readiness.
         A checklist was included with the letter to assist providers in assessing their Y2K
         compliance. The HCFA then sent follow-up letters to all Medicare providers in May.

         The HCFA has also used the Internet as a means to disseminate Y2K information to its
         providers. On its website, HCFA has provided extensive information on a variety of
         topics, including outreach seminars, system testing guidelines, and HCFA’s own Y2K
         status. Additionally, HCFA provides links to many other Y2K websites, including the
         Department of Veterans Affairs and the Food and Drug Administration (FDA). The
         Department of Veterans Affairs’ website provides thorough contingency planning
         guidelines, while the FDA’s website includes a comprehensive database which allows
         providers to determine the Y2K status of many pieces of biomedical equipment.

         Recognizing the importance of Medicare provider readiness, the United States House of
         Representatives Committee on Commerce and the Senate Special Committee on the Year
         2000 Technology Problem requested that we conduct this inspection.

Related Work by the Office of Inspector General

         The Office of Inspector General released a previous report on fee-for-service provider
         readiness for Y2K in March of 1999. The original report, Y2K Readiness of Medicare
         Providers (OEI-03-98-00250), evaluated the Y2K readiness of five types of Medicare
         providers: acute-care hospitals, nursing facilities, home health agencies, durable medical
         equipment (DME) suppliers, and physicians. We found that about half of providers
         responded that their billing and medical records systems were ready. However, providers
         were less confident in the readiness of their biomedical equipment. Furthermore, less than
         half of respondents had developed contingency plans in anticipation of Y2K-related
         problems, and many respondents reported difficulty in getting Y2K guarantees from their
         external vendors.

         A companion report, Secondary Analysis of Medicare Provider Readiness for Y2K
         (OEI-03-98-00252), found that there were few differences in Y2K readiness based on
         demographic indicators such as urban or rural setting, use of a billing service, and
         affiliation with a chain. The size of the provider, however, did seem to effect Y2K
         readiness, with larger providers generally being better prepared than smaller providers.



Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                         6
         Furthermore, in May of 1999, the OIG released a report entitled Y2K Readiness of
         Managed Care Organizations (OEI-05-98-00590). We found that Medicare managed
         care organizations appear to be moving toward internal compliance. However, most
         managed care organizations are unaware of their providers’ Y2K status. An update to this
         report will be released in the near future.



METHODOLOGY

         Using Medicare databases, we sampled the same five provider groups as we did for our
         previous survey: acute-care hospitals, nursing facilities, home health agencies, DME
         suppliers, and physicians. We selected a simple random sample of 1000 fee-for-service
         providers from each of these five provider groups.

         We sent anonymous surveys to 5000 sampled providers on June 30, 1999. We accepted
         responses through August 6, 1999. In order to increase response rates, we assured
         providers that their responses were completely anonymous, and that we had no way of
         tracking who responded to our request. We also mailed a reminder postcard to all
         providers one week after the survey was sent. We received completed surveys from 56
         percent of hospitals, 45 percent of nursing facilities, 43 percent of home health agencies,
         29 percent of DME suppliers, and 20 percent of physicians. We also received letters from
         74 providers indicating that they are aware of the Y2K problem and are actively working
         towards a solution.

         In order to maintain consistency with our previous study, this survey revisited several key
         issues: Y2K awareness, contingency planning, computer systems, biomedical equipment,
         Medicare claim filing, and external suppliers. We designed the surveys in cooperation
         with HCFA and several professional and trade associations. The following organizations
         worked with us and allowed us to highlight their cooperation in the survey instruments
         sent to providers: American Association of Homes and Services for the Aging, American
         Health Care Association, American Hospital Association, American Medical Association,
         Health Industry Distributors Association, National Association for Home Care, and
         National Association for Medical Equipment Services.

         We analyzed survey responses to each question for all provider groups. We calculated
         percentages based on the number of answers provided for each response category. We
         compared the various groups to determine if differences existed among provider types.
         Providers’ responses to individual survey questions are presented in Appendix A.

         This inspection was conducted in accordance with the Quality Standards for Inspections
         issued by the President's Council on Integrity and Efficiency.




Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                         7
Comparison to Prior Office of Inspector General Reports

         In general, the methodology of this inspection was very similar to our previous survey of
         Medicare fee-for-service providers conducted in January of 1999. However, based on our
         experience with the initial survey, we have made improvements to our current
         methodology, some of which make comparisons with the January survey difficult. For
         example, the July survey was shortened considerably, numerous survey questions were
         changed, and our samples were no longer stratified based on an urban or rural designation.

         Furthermore, in order to provide full disclosure to HCFA, we included “not applicable”
         responses when reporting the results from the January survey. However, for this
         inspection, we have removed ‘not applicable’ responses from the analysis, which we feel
         gives a clearer picture of provider readiness. Because of these changes, the percentages
         presented in the two reports do not correspond on a one-to-one basis, and therefore,
         direct comparisons are complicated.

         However, because we believe that measuring the progress of providers during the six
         months between our two surveys is important, we have re-analyzed several key questions
         from the initial Y2K report. We did this by removing “not applicable” responses from the
         January survey data, and by combining the urban and rural strata for each provider group.

         In the conclusion, we have given general comments on the improvements made by
         providers between our initial inspection and this inspection. Additionally, Appendix B
         provides charts which directly compare the re-analyzed provider responses from January
         with the July responses for four important variables: billing system readiness, medical
         records system readiness, biomedical equipment readiness, and contingency planning.

Limitations of Survey Data

         The data analyzed for this report were furnished by individual Medicare providers, and
         were not verified for accuracy. Additionally, the data are based solely on those providers
         who responded to the survey. We are unable to make any statements about the Y2K
         readiness of those who did not respond. Because of the low response rates among certain
         provider groups, readers should be cautious in using our data to make generalizations
         about the entire provider community.




Y2K Readiness of Medicare Fee-for-Service                                             OEI-03-98-00253
Providers as of July 1999                        8
                                            FINDINGS

Approximately two-thirds of Medicare fee-for-service
providers reported that their billing and medical records
systems were Y2K ready
Sixty-one to 75 percent of providers who use computerized billing and medical
records systems reported that these systems were Y2K ready

         The reported readiness of computerized billing and medical records systems varied slightly
         by provider group. Responses from nursing facilities and physicians indicate that they are
         marginally behind hospitals, home health agencies, and DME suppliers in these two areas
         (see Figure 1 on page 11).

Most providers predicted that their billing and medical records systems will be
ready by the end of the year

         Nearly all providers responded that their billing and medical records systems will be 100
         percent ready by December 31, 1999. Less than two percent reported that these systems
         will not be fully Y2K ready on time.

However, at least one-third of providers reported they have not yet tested the
readiness of their systems

         Although more than 80 percent of respondents reported that they have assessed the Y2K
         readiness of their billing and medical records systems, only about 60 percent said they had
         actually tested their readiness. Hospitals were more likely to report having tested these
         systems than were the other provider groups. Additionally, less than half of all providers
         reported that an independent party had verified their systems’ Y2K status.

Many providers had not tested data exchanges with vendors and contractors

         Approximately half of the respondents stated that they had tested data exchanges with
         their billing vendor or clearinghouse. Furthermore, less than one-quarter said they had
         tested claims submission in a future-date environment with their Medicare contractor,
         even though many reported that their contractor had encouraged them to do so. Of
         providers who had not tested data exchange, more than half plan to do so in the near
         future.




Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                         9
Even fewer fee-for-service providers reported that their
biomedical equipment was Y2K ready

Less than half of providers reported that all of their biomedical equipment was
Y2K ready

         Only 27 percent of hospitals reported that all of their biomedical equipment was Y2K
         ready. Among the other provider groups, the reported readiness was approximately 50
         percent (see Figure 1 on next page). Of those not completely ready, hospitals reported 86
         percent of their biomedical equipment was ready, while other provider groups said
         approximately 70 percent of their equipment was ready.

Most providers expected their biomedical equipment to be completely ready by
the end of the year

         More than 90 percent of providers reported that their biomedical equipment will be
         completely ready by December 31, 1999. In general, providers who predicted that their
         equipment will not be totally ready felt that only a small percentage of their biomedical
         equipment would not be compliant on time.

Hospitals were significantly more likely than other providers to report that they
had tested their biomedical equipment

         Almost 70 percent of hospitals reported that they had tested their biomedical equipment.
         Fifty percent or less of nursing facilities, home health agencies, DME suppliers, and
         physicians said that they had tested. Furthermore, only 40 percent of the hospitals and
         one-quarter of the other provider groups reported that a third party had independently
         verified the status of their biomedical equipment.

The majority of providers reported that they are relying on the manufacturers of
their biomedical equipment to provide Y2K information

         Over 60 percent of providers responded that they are relying on manufacturers’ statements
         regarding the Y2K readiness of their biomedical equipment. However, half of the
         hospitals reported that they had problems getting Y2K information from these
         manufacturers. More than one in five providers did not feel they had the information
         necessary to evaluate the Y2K readiness of their biomedical equipment.




Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                        10
                              FIGURE 1: PROVIDER READINESS

                         Percent Who Reported Current Y2K Readiness


                         0%      10%        20%   30%   40%    50%    60%    70%     80%    90%   100%


                                                                                   74%

            Hospitals                                                              72%

                                                  27%


                                                                           61%         Billing Systems

 Nursing Facilities                                                          66%       Medical Records Systems

                                                                50%                    Biomedical Equipment

                                                                                   72%
      Home Health
                                                                                   74%
       Agencies
                                                               48%


                                                                                    75%

    DME Suppliers                                                                70%

                                                                     54%


                                                                             66%

          Physicians                                                        65%

                                                                     56%


                          Source: Office of Evaluation and Inspections Survey - July 1999


                          Note: Please see Appendix B for comparison with January 1999 survey data. 





Y2K Readiness of Medicare Fee-for-Service                                                          OEI-03-98-00253
Providers as of July 1999                                 11
Many Medicare fee-for-service providers have not completed
contingency plans
Less than 60 percent of survey respondents stated that they had completed
contingency plans

         Fifty-nine percent of hospitals reported that they had completed contingency plans in
         preparation for potential Y2K-related failures. The percentages were slightly lower for
         the other provider groups (see Figure 2 on next page). Furthermore, less than half of the
         respondents stated that they had tested their contingency plans.

Some providers said that they will not make contingency plans

         Approximately one-quarter of DME suppliers and physicians who did not have
         contingency plans said they had no intention of completing them in anticipation of the
         Year 2000. However, nearly all hospitals, and most nursing facilities and home health
         agencies, reported that they will make contingency plans before the end of the year.

Uncertainty about external suppliers and utility providers was a cause of concern
among some Medicare providers

         Approximately one-third of DME suppliers and physicians had not identified all of their
         external suppliers (e.g. pharmaceutic suppliers, food suppliers) and utility providers.
         Additionally, only half of hospitals and nursing facilities and less than 40 percent of the
         other provider groups reported that they had received certifications of Y2K readiness from
         these external entities.



Not all providers are taking advantage of Federal outreach
efforts
         Approximately one-half of hospitals, nursing facilities and home health agencies reported
         visiting HCFA’s website. However, less than 20 percent of DME suppliers and physicians
         had done so. With the exception of hospitals, less than one-quarter of respondents had
         been to the FDA’s website. Less than one-third of providers were even aware of the
         Department of Veterans Affairs’ website. However, approximately 90 percent of
         providers who had been to the HCFA and FDA sites said they found them to be helpful.

         Furthermore, approximately 70 percent of providers reported that their Medicare
         contractors had sent them information or offered assistance with Y2K issues. Only 15
         percent of respondents reported that their Medicare contractor had not contacted them
         about Y2K. Another 15 percent said they did not know if they had received anything
         concerning Y2K from their contractors.
Y2K Readiness of Medicare Fee-for-Service                                             OEI-03-98-00253
Providers as of July 1999                        12
                            FIGURE 2: CONTINGENCY PLANNING

                     Percent Who Reported Completing Contingency Plans

                           0%      10%      20%   30%   40%    50%     60%       70%   80%   90%     100%




              Hospitals                                                    59%




   Nursing Facilities                                                 55%




         Home Health
                                                                      56%
          Agencies




       DME Suppliers                                                 52%




            Physicians                                          49%




                             Source: Office of Evaluation and Inspections Survey - July 1999


                             Note: Please see Appendix B for comparison with January 1999 survey data. 





Y2K Readiness of Medicare Fee-for-Service                                                          OEI-03-98-00253
Providers as of July 1999                               13
                                            CONCLUSION

Many Medicare fee-for-service providers were not Y2K ready as of July 1999, and
we have concerns that some providers may not be ready by January 1, 2000.

         In the six months between our two surveys, health care providers have generally reported
         improvements in the status of their billing systems, medical records systems, and
         biomedical equipment. Providers were also more likely to report having completed
         contingency plans than they were six months ago. However, certain provider groups are
         further along the path to Y2K readiness than others. These differences are reflected in:
         their reported readiness as of July 1999; the concrete steps they have taken in preparation
         for Y2K; and their higher response rates.

         Furthermore, some providers still report not taking the necessary steps to ensure that they
         are Y2K ready. Additionally, since a large number of providers did not respond to our
         survey, we have no information to measure their current Y2K status, or their prospects for
         future readiness.

         While Y2K readiness is the responsibility of individual providers, HCFA has undertaken
         numerous efforts to assist them. As HCFA, as well as the provider associations, continue
         their outreach and education initiatives, we suggest they focus on the following:
         emphasizing the need to test data exchanges as well as internal computer systems,
         stressing the importance of contingency planning, and publicizing websites where Y2K
         information is available. With only a few months left until the year 2000 arrives, it is
         increasingly important that HCFA, provider associations, and the providers themselves
         work together to ensure that beneficiaries will continue to receive uninterrupted quality
         care.

Agency Comments

         The HCFA agreed with our conclusions, stating that our survey confirms what their own
         outreach efforts have found: providers have made progress in Y2K readiness, but there is
         still much work to be done. Additionally, HCFA provided a detailed account of their past
         outreach activities and future plans. They concluded by stating that Y2K continues to be
         the agency’s top priority. The full text of their comments is found in Appendix C.

         We commend HCFA’s attention and concern regarding Medicare fee-for-service
         providers’ readiness for Y2K, and support their plans for continued outreach activities.




Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
Providers as of July 1999                         14
                                                                                   APPENDIX A


                                   Provider Survey Responses

         In this appendix, we present the aggregated responses to our Year 2000 survey by
         provider type.


         KEY:

         n = number of responses to the question (not applicable responses excluded)

         Yes = percentage of n answering “Yes”

         No = percentage of n answering “No”

         Don’t Know = percentage of n answering “Don’t Know”


         Note: All percentages may not add to 100 due to rounding


SURVEY RESPONSE RATES:

          Provider                      Total        Surveys    Surveys          Response
            Type                       Number        Mailed     Returned           Rate
           Hospitals                        5,692     1,000        559             56%
     Nursing Facilities                     16,749    1,000        448             45%
  Home Health Agencies                      9,098     1,000        426             43%
       DME Suppliers                    109,429       1,000        293             29%
          Physicians                    831,091       1,000        198             20%




Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
Providers as of July 1999                            15
                                                                                               APPENDIX A


A. Y2K Awareness and Contingency Planning

1. Do you feel that your ability to provide quality care          Provider         n     Yes        No           Don’t
   could be compromised by Y2K?                                     Type                                         Know

                                                                   Hospital        550   17%       79%            4%
                                                                Nursing Facility   442   18%       74%            8%
                                                            Home Health Agency     419   22%       73%            5%
                                                                DME Supplier       288   15%       74%           10%
                                                                  Physician        196   16%       78%            6%

2. Is your corporate headquarters responsible for your             Provider        n     Yes        No           Don’t
   Y2K readiness?                                                    Type                                        Know

                                                                   Hospital        418   64%       36%            0%
                                                                Nursing Facility   375   76%       23%            1%
                                                            Home Health Agency     363   82%       18%            0%
                                                                DME Supplier       223   79%       21%            0%
                                                                  Physician        144   72%       25%            3%

3. Have you completed contingency plans in case you                Provider        n     Yes        No           Don’t
   experience Y2K-related failures?                                  Type                                        Know

                                                                   Hospital        559   59%       40%            0%
                                                                Nursing Facility   435   55%       38%            7%
                                                            Home Health Agency     414   56%       39%            5%
                                                                DME Supplier       280   52%       41%            7%
                                                                  Physician        181   49%       45%            6%

4. If no, do you plan on completing contingency plans             Provider         n     Yes        No           Don’t
   before the end of 1999?                                          Type                                         Know

                                                                   Hospital        224   97%        1%            2%
                                                                Nursing Facility   163   87%        7%            7%
                                                            Home Health Agency     161   84%        7%            8%
                                                                DME Supplier       113   66%       23%           11%
                                                                  Physician        79    57%       30%           13%




       Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
       Providers as of July 1999                           16
                                                                                            APPENDIX A


A. Y2K Awareness and Contingency Planning (cont.)

5. To the extent feasible, have you tested your                Provider         n     Yes         No           Don’t
   contingency plans?                                            Type                                          Know

                                                                Hospital        512   46%        53%            2%
                                                             Nursing Facility   380   38%        54%            8%
                                                         Home Health Agency     359   42%        52%            7%
                                                             DME Supplier       238   47%        45%            8%
                                                               Physician        150   46%        45%            9%



B. Billing/Financial Systems

1. Do you use computerized billing/financial systems?           Provider        n     Yes         No           Don’t
                                                                  Type                                         Know

                                                                Hospital        556   100%        0%            0%
                                                             Nursing Facility   445   96%         4%            1%
                                                         Home Health Agency     423   97%         3%            0%
                                                             DME Supplier       292   89%        11%            0%
                                                               Physician        196   86%        13%            1%

2. Have you made a complete inventory of your                  Provider         n     Yes         No           Don’t
   billing/financial systems?                                    Type                                          Know

                                                                Hospital        555   98%         2%            0%
                                                             Nursing Facility   421   87%         9%            5%
                                                         Home Health Agency     407   84%        10%            6%
                                                             DME Supplier       255   80%        13%            7%
                                                               Physician        167   82%         9%            9%

3. Have you assessed the Y2K readiness of your                  Provider        n     Yes         No           Don’t
   billing/financial systems?                                     Type                                         Know

                                                                Hospital        555   98%         2%            1%
                                                             Nursing Facility   421   84%        11%            5%
                                                         Home Health Agency     408   86%        10%            4%
                                                             DME Supplier       257   80%        14%            6%
                                                               Physician        169   87%         7%            7%

      Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
      Providers as of July 1999                         17
                                                                                                 APPENDIX A


B. Billing/Financial Systems (cont.)

4. Have you tested your billing/financial systems to                Provider         n     Yes         No           Don’t
   ensure Y2K readiness?                                              Type                                          Know

                                                                     Hospital        552   68%        30%            2%
                                                                  Nursing Facility   416   57%        34%           10%
                                                              Home Health Agency     402   58%        34%            8%
                                                                  DME Supplier       254   60%        32%            7%
                                                                    Physician        167   61%        31%            8%

5. Has an independent party verified the Y2K status of               Provider        n     Yes         No           Don’t
   your billing/financial systems?                                     Type                                         Know

                                                                     Hospital        548   43%        52%            5%
                                                                  Nursing Facility   412   44%        40%           16%
                                                              Home Health Agency     402   43%        45%           12%
                                                                  DME Supplier       254   51%        39%           10%
                                                                    Physician        167   56%        36%            8%

6. Are all of your billing/financial systems currently Y2K          Provider         n     Yes         No           Don’t
   ready?                                                             Type                                          Know

                                                                     Hospital        544   74%        24%            3%
                                                                  Nursing Facility   407   61%        28%           11%
                                                              Home Health Agency     395   72%        21%            7%
                                                                  DME Supplier       251   75%        13%           12%
                                                                    Physician        153   66%        21%           13%

7. If no, what percentage of your billing/financial                  Provider        n     Mean     Median          Mode
   systems are currently Y2K ready?                                    Type

                                                                     Hospital        125   65%        75%           90%
                                                                  Nursing Facility   103   47%        50%            0%
                                                              Home Health Agency     73    53%        50%            0%
                                                                  DME Supplier       28    52%        50%           50%
                                                                    Physician        29    40%        50%            0%




       Y2K Readiness of Medicare Fee-for-Service                                                  OEI-03-98-00253
       Providers as of July 1999                             18
                                                                                                APPENDIX A


B. Billing/Financial Systems (cont.)

8. What percentage of your billing/financial systems will          Provider         n     Mean     Median          Mode
   be Y2K ready on December 31, 1999?                                Type

                                                                    Hospital        543   100%      100%           100%
                                                                 Nursing Facility   376   100%      100%           100%
                                                             Home Health Agency     374   100%      100%           100%
                                                                 DME Supplier       228   99%       100%           100%
                                                                   Physician        147   99%       100%           100%



C. Clinical/Medical Records Systems

1. Do you use computerized clinical/medical records                Provider         n     Yes         No           Don’t
   systems?                                                          Type                                          Know

                                                                    Hospital        554   62%        38%            0%
                                                                 Nursing Facility   446   73%        26%            0%
                                                             Home Health Agency     423   49%        51%            0%
                                                                 DME Supplier       281   46%        54%            0%
                                                                   Physician        196   23%        76%            1%

2. Have you made a complete inventory of your                      Provider         n     Yes         No           Don’t
   clinical/medical records systems?                                 Type                                          Know

                                                                    Hospital        341   97%         3%            1%
                                                                 Nursing Facility   324   85%        11%            4%
                                                             Home Health Agency     205   85%        11%            4%
                                                                 DME Supplier       129   73%        19%            9%
                                                                   Physician        45    84%         7%            9%

3. Have you assessed the Y2K readiness of your                     Provider         n     Yes         No           Don’t
   clinical/medical records systems?                                 Type                                          Know

                                                                    Hospital        341   98%         2%            1%
                                                                 Nursing Facility   325   86%        10%            4%
                                                             Home Health Agency     207   84%        13%            3%
                                                                 DME Supplier       129   77%        14%            9%
                                                                   Physician        45    80%         9%           11%

      Y2K Readiness of Medicare Fee-for-Service                                                  OEI-03-98-00253
      Providers as of July 1999                             19
                                                                                                 APPENDIX A


C. Clinical/Medical Records Systems (cont.)

4. Have you tested your clinical/medical records system             Provider         n     Yes         No           Don’t
   to ensure Y2K readiness?                                           Type                                          Know

                                                                     Hospital        339   67%        32%            1%
                                                                  Nursing Facility   322   57%        35%            9%
                                                              Home Health Agency     206   57%        38%            4%
                                                                  DME Supplier       129   53%        37%           10%
                                                                    Physician        45    47%        40%           13%

5. Has an independent party verified the Y2K status of              Provider         n     Yes         No           Don’t
   your clinical/medical records systems?                             Type                                          Know

                                                                     Hospital        337   42%        54%            4%
                                                                  Nursing Facility   322   45%        44%           11%
                                                              Home Health Agency     205   47%        44%            9%
                                                                  DME Supplier       129   48%        36%           16%
                                                                    Physician        46    46%        39%           15%

6. Are all of your clinical/medical records systems                 Provider         n     Yes         No           Don’t
   currently Y2K ready?                                               Type                                          Know

                                                                     Hospital        335   72%        26%            2%
                                                                  Nursing Facility   318   66%        23%           11%
                                                              Home Health Agency     201   74%        17%            8%
                                                                  DME Supplier       127   70%        15%           15%
                                                                    Physician        43    65%        23%           12%

7. If no, what percentage of your clinical/medical records           Provider        n     Mean     Median          Mode
   systems are currently Y2K ready?                                    Type

                                                                     Hospital        87    66%        75%           50%
                                                                  Nursing Facility   69    47%        50%            0%
                                                              Home Health Agency     29    54%        50%           50%
                                                                  DME Supplier       17    42%        35%            0%
                                                                    Physician        8     31%        25%            0%




      Y2K Readiness of Medicare Fee-for-Service                                                   OEI-03-98-00253
      Providers as of July 1999                              20
                                                                                            APPENDIX A


C. Clinical/Medical Records Systems (cont.)

8. What percentage of your clinical/medical records            Provider         n     Mean     Median          Mode
   systems will be Y2K ready on December 31, 1999?               Type

                                                                Hospital        333   100%      100%           100%
                                                             Nursing Facility   295   99%       100%           100%
                                                         Home Health Agency     186   99%       100%           100%
                                                             DME Supplier       108   99%       100%           100%
                                                               Physician        40    100%      100%           100%



D. Biomedical Equipment

1. Do you use biomedical equipment?                            Provider         n     Yes         No           Don’t
                                                                 Type                                          Know

                                                                Hospital        550   100%        0%            0%
                                                             Nursing Facility   410   59%        37%            4%
                                                         Home Health Agency     370   47%        52%            1%
                                                             DME Supplier       256   41%        57%            2%
                                                               Physician        177   51%        47%            2%

2. Have you made a complete inventory of your                  Provider         n     Yes         No           Don’t
   biomedical equipment?                                         Type                                          Know

                                                                Hospital        548   99%         1%            0%
                                                             Nursing Facility   242   83%        15%            2%
                                                         Home Health Agency     173   88%         9%            3%
                                                             DME Supplier       105   86%        13%            1%
                                                               Physician        89    87%        11%            2%

3. Have you had problems getting Y2K information from          Provider         n     Yes         No           Don’t
   the manufacturers of your biomedical equipment?               Type                                          Know

                                                                Hospital        547   48%        49%            3%
                                                             Nursing Facility   236   28%        64%            8%
                                                         Home Health Agency     170   27%        60%           13%
                                                             DME Supplier       101   18%        74%            8%
                                                               Physician        87    16%        67%           17%

      Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
      Providers as of July 1999                         21
                                                                                             APPENDIX A


D. Biomedical Equipment (cont.)

4. Do you feel you now have the information necessary           Provider         n     Yes        No           Don’t
   to evaluate the Y2K readiness of your equipment?               Type                                         Know

                                                                 Hospital        545   86%       12%            2%
                                                              Nursing Facility   242   74%       17%           10%
                                                          Home Health Agency     168   71%       20%            9%
                                                              DME Supplier       102   75%       20%            6%
                                                                Physician        89    72%       18%           10%

5. Are you relying on manufacturer statements                   Provider         n     Yes        No           Don’t
   concerning the readiness of your biomedical                    Type                                         Know
   equipment?
                                                                 Hospital        545   58%       42%            0%
                                                              Nursing Facility   242   66%       29%            6%
                                                          Home Health Agency     172   71%       25%            4%
                                                              DME Supplier       101   62%       36%            2%
                                                                Physician        87    59%       33%            8%

6. Have you tested your biomedical equipment to ensure          Provider         n     Yes        No           Don’t
   Y2K readiness?                                                 Type                                         Know

                                                                 Hospital        546   68%       30%            1%
                                                              Nursing Facility   232   40%       54%            6%
                                                          Home Health Agency     164   40%       55%            4%
                                                              DME Supplier       102   42%       57%            1%
                                                                Physician        84    50%       44%            6%

7. Has an independent party verified the Y2K status of          Provider         n     Yes        No           Don’t
   your biomedical equipment?                                     Type                                         Know

                                                                 Hospital        543   40%       57%            2%
                                                              Nursing Facility   238   25%       61%           13%
                                                          Home Health Agency     167   25%       68%            7%
                                                              DME Supplier       102   18%       77%            5%
                                                                Physician        86    27%       60%           13%




      Y2K Readiness of Medicare Fee-for-Service                                              OEI-03-98-00253
      Providers as of July 1999                          22
                                                                                             APPENDIX A


D. Biomedical Equipment (cont.)

8. Is all of your biomedical equipment currently Y2K            Provider         n     Yes         No           Don’t
   ready?                                                         Type                                          Know

                                                                 Hospital        537   27%        67%            5%
                                                              Nursing Facility   230   50%        24%           25%
                                                          Home Health Agency     159   48%        25%           27%
                                                              DME Supplier       100   54%        28%           18%
                                                                Physician        79    56%        23%           22%

9. If no, what percentage of your biomedical equipment           Provider        n     Mean     Median          Mode
   is currently Y2K ready?                                         Type

                                                                 Hospital        357   86%        90%           90%
                                                              Nursing Facility   49    75%        90%           90%
                                                          Home Health Agency     39    69%        75%           75%
                                                              DME Supplier       28    67%        85%            0%
                                                                Physician        17    66%        80%           80%

10. What percentage of your biomedical equipment will           Provider         n     Mean     Median          Mode
    be Y2K ready on December 31, 1999?                            Type

                                                                 Hospital        513   99%       100%           100%
                                                              Nursing Facility   185   99%       100%           100%
                                                          Home Health Agency     134   99%       100%           100%
                                                              DME Supplier       83    97%       100%           100%
                                                                Physician        67    99%       100%           100%

11. Do you know the FDA has Y2K information about               Provider         n     Yes         No           Don’t
    biomedical equipment on its website (www.fda.gov)?            Type                                          Know

                                                                 Hospital        541   79%        18%            2%
                                                              Nursing Facility   353   44%        48%            8%
                                                          Home Health Agency     289   41%        52%            7%
                                                              DME Supplier       174   27%        67%            6%
                                                                Physician        125   26%        69%            6%




      Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
      Providers as of July 1999                          23
                                                                                                APPENDIX A


D. Biomedical Equipment (cont.)

12. Have you visited the FDA’s website to obtain                   Provider         n     Yes         No           Don’t
    readiness information about biomedical equipment?                Type                                          Know

                                                                    Hospital        535   59%        37%            4%
                                                                 Nursing Facility   347   25%        70%            4%
                                                             Home Health Agency     277   22%        77%            1%
                                                                 DME Supplier       172   11%        88%            1%
                                                                   Physician        123   8%         90%            2%

13. Did you find the FDA’s website helpful?                        Provider         n     Yes         No           Don’t
                                                                     Type                                          Know

                                                                    Hospital        316   91%         6%            3%
                                                                 Nursing Facility   87    95%         3%            1%
                                                             Home Health Agency     54    87%         9%            4%
                                                                 DME Supplier       18    100%        0%            0%
                                                                   Physician        10    100%        0%            0%



E. Medicare Claim Filing

1.   Do you file your Medicare claims electronically?              Provider         n     Yes         No           Don’t
                                                                     Type                                          Know

                                                                    Hospital        549   97%         1%            2%
                                                                 Nursing Facility   411   91%         8%            1%
                                                             Home Health Agency     411   94%         6%            0%
                                                                 DME Supplier       281   66%        34%            0%
                                                                   Physician        188   61%        35%            5%

2.   Do all of your payers require the same claim format?          Provider         n     Yes         No           Don’t
                                                                     Type                                          Know

                                                                    Hospital        543   42%        45%           13%
                                                                 Nursing Facility   399   52%        34%           14%
                                                             Home Health Agency     404   38%        57%            5%
                                                                 DME Supplier       266   44%        44%           12%
                                                                   Physician        180   50%        33%           17%

       Y2K Readiness of Medicare Fee-for-Service                                                 OEI-03-98-00253
       Providers as of July 1999                            24
                                                                                                APPENDIX A


E. Medicare Claim Filing (cont.)

3.   Do you use an external vendor or clearinghouse for            Provider         n     Yes        No           Don’t
     claim submission and payment activities?                        Type                                         Know

                                                                    Hospital        546   72%       24%            4%
                                                                 Nursing Facility   413   36%       58%            6%
                                                             Home Health Agency     408   29%       69%            2%
                                                                 DME Supplier       266   41%       54%            5%
                                                                   Physician        177   42%       50%            8%

4.   Do you send non-compliant dates to your vendor/                Provider        n     Yes        No           Don’t
     clearinghouse for conversion into an 8-digit format?             Type                                        Know

                                                                    Hospital        382   24%       53%           23%
                                                                 Nursing Facility   142   27%       39%           33%
                                                             Home Health Agency     110   28%       47%           25%
                                                                 DME Supplier       102   31%       42%           26%
                                                                   Physician        69    26%       45%           29%

5.   Have you performed testing with your vendor/                  Provider         n     Yes        No           Don’t
     clearinghouse in order to confirm their Y2K                     Type                                         Know
     readiness?
                                                                    Hospital        392   53%       40%            6%
                                                                 Nursing Facility   145   36%       48%           16%
                                                             Home Health Agency     114   48%       39%           12%
                                                                 DME Supplier       109   45%       40%           15%
                                                                   Physician        72    47%       42%           11%

6.   Has your Medicare contractor sent you information              Provider        n     Yes        No           Don’t
     or offered assistance with Y2K issues?                           Type                                        Know

                                                                    Hospital        542   77%       11%           12%
                                                                 Nursing Facility   384   64%       16%           20%
                                                             Home Health Agency     382   78%       14%            8%
                                                                 DME Supplier       242   69%       17%           14%
                                                                   Physician        162   64%       17%           19%




       Y2K Readiness of Medicare Fee-for-Service                                                OEI-03-98-00253
       Providers as of July 1999                            25
                                                                                               APPENDIX A


E. Medicare Claim Filing (cont.)

7.   Has your Medicare contractor encouraged you to test          Provider         n     Yes        No           Don’t
     claims submission in a future-date environment?                Type                                         Know

                                                                   Hospital        540   50%       26%           23%
                                                                Nursing Facility   379   40%       33%           27%
                                                            Home Health Agency     375   51%       35%           15%
                                                                DME Supplier       236   45%       33%           22%
                                                                  Physician        156   40%       33%           28%

8.   Have you tested claims submission in a future-date            Provider        n     Yes        No           Don’t
     environment with your Medicare contractor?                      Type                                        Know

                                                                   Hospital        538   27%       54%           19%
                                                                Nursing Facility   381   16%       61%           23%
                                                            Home Health Agency     378   19%       67%           14%
                                                                DME Supplier       237   17%       69%           14%
                                                                  Physician        154   18%       60%           22%

9.   If no, do you plan to test claims submission in a            Provider         n     Yes        No           Don’t
     future-date environment with your Medicare                     Type                                         Know
     contractor?
                                                                   Hospital        283   65%       17%           17%
                                                                Nursing Facility   228   59%       16%           25%
                                                            Home Health Agency     248   66%       14%           20%
                                                                DME Supplier       154   54%       27%           19%
                                                                  Physician        88    51%       30%           19%

10. Have you visited HCFA’s website (www.hcfa.gov) to              Provider        n     Yes        No           Don’t
    obtain information about Y2K?                                    Type                                        Know

                                                                   Hospital        541   56%       38%            6%
                                                                Nursing Facility   411   40%       56%            4%
                                                            Home Health Agency     402   53%       45%            2%
                                                                DME Supplier       259   16%       82%            2%
                                                                  Physician        172   17%       78%            5%




       Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
       Providers as of July 1999                           26
                                                                                                  APPENDIX A


E. Medicare Claim Filing (cont.)

11. Did you find HCFA’s website helpful?                             Provider         n     Yes        No           Don’t
                                                                       Type                                         Know

                                                                      Hospital        295   91%        7%            2%
                                                                   Nursing Facility   166   90%        9%            1%
                                                               Home Health Agency     208   88%        8%            3%
                                                                   DME Supplier       38    92%        8%            0%
                                                                     Physician        29    83%       17%            0%



F. External Suppliers

1.   Have you identified all external suppliers and utility           Provider        n     Yes        No           Don’t
     providers with whom you conduct business?                          Type                                        Know

                                                                      Hospital        549   94%        5%            1%
                                                                   Nursing Facility   436   85%       11%            4%
                                                               Home Health Agency     392   78%       18%            4%
                                                                   DME Supplier       270   60%       33%            7%
                                                                     Physician        171   56%       35%            9%

2.   Have you received certification from these suppliers/           Provider         n     Yes        No           Don’t
     providers that their systems will be Y2K ready?                   Type                                         Know

                                                                      Hospital        545   57%       40%            3%
                                                                   Nursing Facility   436   51%       43%            6%
                                                               Home Health Agency     388   40%       51%            8%
                                                                   DME Supplier       267   35%       54%           11%
                                                                     Physician        163   38%       48%           14%

3.   Do you anticipate problems due to disruptions                    Provider        n     Yes        No           Don’t
     caused by these suppliers’/providers’ Y2K                          Type                                        Know
     problems?
                                                                      Hospital        547   16%       71%           13%
                                                                   Nursing Facility   439   10%       73%           17%
                                                               Home Health Agency     396   12%       71%           17%
                                                                   DME Supplier       269   13%       71%           16%
                                                                     Physician        169   11%       70%           20%

       Y2K Readiness of Medicare Fee-for-Service                                                  OEI-03-98-00253
       Providers as of July 1999                              27
                                                                                                APPENDIX A


F. External Suppliers (cont.)

4.   Are you aware that the Dept. of Veterans Affairs has          Provider         n     Yes        No           Don’t
     Y2K information on its website (www.va.gov)?                    Type                                         Know

                                                                    Hospital        545   37%       59%            3%
                                                                 Nursing Facility   433   18%       78%            4%
                                                             Home Health Agency     396   15%       81%            5%
                                                                 DME Supplier       268   13%       81%            6%
                                                                   Physician        164   7%        84%            9%




       Y2K Readiness of Medicare Fee-for-Service                                                OEI-03-98-00253
       Providers as of July 1999                            28
                                                                           APPENDIX B


                   Comparison with Previous Survey Results


     In this appendix, we present a comparison of several key variables from this inspection to
     similar variables in our prior inspection, Y2K Readiness of Medicare Providers (OEI-03-98-
     00250). These variables involve billing system readiness, medical records system readiness,
     biomedical equipment readiness, and contingency planning. Please see page 7 for an
     explanation of how these comparisons were made.




Y2K Readiness of Medicare Fee-for-Service                                           OEI-03-98-00253
Providers as of July 1999                      29
                                                                                APPENDIX B



                              FIGURE 1: BILLING SYSTEM READINESS

                      Percent Who Reported Billing Systems Were Y2K Ready



                       0%             20%      40%          60%           80%   100%



                                                            54%
           Hospitals
                                                                          74%




                                                       50%
  Nursing Facilities
                                                                  61%

                                                        B




                                                        51%
       Home Health
        Agencies                                                                       January 1999
                                                                        72%
                                                                                       July 1999




                                                                  63%
     DME Suppliers
                                                                          75%




                                                         52%
          Physicians
                                                                    66%




                          Source: OEI Surveys - January 1999 and July 1999



Y2K Readiness of Medicare Fee-for-Service                                                OEI-03-98-00253
Providers as of July 1999                             30
                                                                               APPENDIX B



                    FIGURE 2: M EDICAL RECORDS SYSTEMS READINESS

              Percent Who Reported Medical Records Systems WereY2K Ready



                      0%             20%      40%         60%            80%   100%



                                                      49%
          Hospitals
                                                                        72%




                                                            57%
 Nursing Facilities
                                                                  66%




                                                            56%
      Home Health
       Agencies
                                                                        74%           January 1999
                                                                                      July 1999



                                                              61%
    DME Suppliers
                                                                    70%




                                                             60%
        Physicians
                                                                  65%



                         Source: OEI Surveys - January 1999 and July 1999




Y2K Readiness of Medicare Fee-for-Service                                               OEI-03-98-00253
Providers as of July 1999                            31
                                                                                         APPENDIX B



                       Figure 3: BIOMEDICAL EQUIPMENT READINESS

                 Percent Who Reported Biomedical Equipment Was Y2K Ready


                      0%     10%    20%     30%    40%   50%      60%   70%   80%   90% 100%




                                             28%
          Hospitals
                                            27%




                                             29%
Nursing Facilities
                                                             50%


                                                         B




                                                   37%
     Home Health
      Agencies
                                                         48%                                   January 1999
                                                                                               July 1999




                                                         48%
   DME Suppliers
                                                                  54%




                                                     42%
        Physicians
                                                                  56%




                           Source: OEI Surveys - January 1999 and July 1999




Y2K Readiness of Medicare Fee-for-Service                                                       OEI-03-98-00253
Providers as of July 1999                                    32
                                                                              APPENDIX B


                               FIGURE 4: CONTINGENCY PLANNING

                       Percent Who Reported Completing Contingency Plans


                      0%             20%      40%             60%       80%   100%




                                                        48%
          Hospitals
                                                                  59%




                                             34%
 Nursing Facilities
                                                              55%

                                                        B




                                                  40%
      Home Health
       Agencies                                                                      January 1999
                                                              56%
                                                                                     July 1999




                                            33%
    DME Suppliers
                                                            52%




                                            33%
        Physicians
                                                        49%



                         Source: OEI Surveys - January 1999 and July 1999




Y2K Readiness of Medicare Fee-for-Service                                             OEI-03-98-00253
Providers as of July 1999                               33
                                                                           APPENDIX C


            Health Care Financing Administration Comments


     In this appendix, we present, in full, comments from the Health Care Financing
     Administration.




Y2K Readiness of Medicare Fee-for-Service                                             OEI-03-98-00253
Providers as of July 1999                       34
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   35
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   36
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   37
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   38
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   39
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   40
                                                 APPENDIX C




Y2K Readiness of Medicare Fee-for-Service            OEI-03-98-00253
Providers as of July 1999                   41
